Case: 18-2146

Document: 00117684494

Page: 1

Date Filed: 12/22/2020

Entry ID: 6390321

United States Court of Appeals
For the First Circuit
No. 18-2146
UNITED STATES OF AMERICA,
Appellee,
v.
CARLOS J. GUZMÁN-MERCED,
Defendant, Appellant.

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
[Hon. Daniel R. Domínguez, U.S. District Judge]

Before
Howard, Chief Judge,
Kayatta, Circuit Judge,
and Casper,* District Judge.

Vivian Shevitz for appellant.
David Christian Bornstein, Assistant United States Attorney,
with whom W. Stephen Muldrow, United States Attorney, Mariana E.
Bauzá-Almonte, Assistant United States Attorney, Chief, Appellate
Division, and Francisco A. Besosa-Martínez, Assistant United
States Attorney, were on brief, for appellee.

December 22, 2020

*

Of the District of Massachusetts, sitting by designation.

Case: 18-2146

Document: 00117684494

Page: 2

Date Filed: 12/22/2020

KAYATTA, Circuit Judge.

Entry ID: 6390321

18 U.S.C. § 922(g)(1) makes it

a crime for a convicted felon to possess a firearm.

In Rehaif v.

United States, 139 S. Ct. 2191, 2200 (2019), the United States
Supreme Court held that a conviction for that crime requires proof
beyond a reasonable doubt that when the defendant possessed the
gun, he knew he was a felon -- i.e., he knew he had previously
been convicted of an offense punishable by more than a year in
prison.

Last year, we explained how to apply Rehaif to a post-

conviction appeal by a defendant who pled guilty to unlawfully
possessing a firearm under section 922(g)(1) without having been
informed of this requirement.

United States v. Burghardt, 939

F.3d 397, 403–06 (1st Cir. 2019).
rejected that defendant's appeal.

On plain error review, we
We found that there was no

"reasonable probability" that that defendant would have proceeded
to trial had he been told by the district court that the government
need prove that he knew when he possessed the gun that the crime
of which he had previously been convicted was punishable by more
than a year in prison.

Id. at 405–06.

In this case, we apply

that same test to materially different facts, finding that there
is a reasonable probability that Carlos J. Guzmán-Merced would not
have pled guilty had he been advised of this essential element of
the government's burden of proof.

Our reasoning follows.

- 2 -

Case: 18-2146

Document: 00117684494

Page: 3

Date Filed: 12/22/2020

Entry ID: 6390321

I.
Guzmán fared poorly as a child in school:

He was

diagnosed with learning disabilities early on, and he failed
seventh grade twice before dropping out of school altogether.

By

age sixteen, he had found his way into the juvenile justice system.
In 2012, at age seventeen, Guzmán was charged as an adult with one
count of using violence against a public authority and two counts
of carrying and using a firearm without a license, all felonies
punishable by more than one year in prison under Puerto Rico law.
In 2013, he was convicted of all three counts and sentenced to
exactly one year of imprisonment on each, but he served no time in
prison because his sentence was suspended to a term of probation.
That brings us to the conviction giving rise to this
appeal.

In 2017, at age twenty-two, Guzmán was caught engaging in

a shoot-out at a barber shop.

He pled guilty in March 2018 to one

count of violating section 922(g)(1).

Both parties agree that,

without the benefit of the June 2019 Rehaif decision, the district
court did not advise Guzmán that the government would need to prove
beyond a reasonable doubt that he knew the facts that made it
unlawful for him to possess a gun.

Both parties also agree that

Guzmán made no relevant objection to the adequacy of his Rule 11
colloquy before the district court.

- 3 -

Case: 18-2146

Document: 00117684494

Page: 4

Date Filed: 12/22/2020

Entry ID: 6390321

II.
As

in

Burghardt,

Guzmán's

guilty

plea

waived

his

challenge to the sufficiency of the indictment, and we find no
compelling reason to excuse that waiver.

See 939 F.3d at 402.

With respect to Guzmán's challenge to the plea itself, plain error
review applies given the absence of any objection below.
at 402–03.

See id.

We now know, with hindsight, that the district court's

failure to advise Guzmán of Rehaif's knowledge requirement was
clear error.

So we turn first to the question of prejudice, which

depends on whether there is a reasonable probability that Guzmán
would not have pled guilty had he been informed in accordance with
Rehaif.

See id. at 403.
In Burghardt we found no such probability for two basic

reasons.

First, the record "reveal[ed] no reason to think that

the government would have had any difficulty at all in offering
overwhelming proof that Burghardt knew that he had previously been
convicted of offenses punishable by more than a year in prison."
Id. at 404.
level

Second, pleading guilty garnered Burghardt a "three-

reduction

responsibility."

under

the

Guidelines

for

his

acceptance

of

Id. at 405.

The overwhelming proof of the requisite knowledge in
Burghardt included the finding in the presentence report that
Burghardt had been sentenced to 2-10 years on two prior offenses,
7.5-15 years on another, and 2-5 years on a fourth.

- 4 -

Id. at 404.

Case: 18-2146

Document: 00117684494

Page: 5

Date Filed: 12/22/2020

There was no reason to doubt the accuracy of this report.

Entry ID: 6390321

See id.

Nor was there reason to doubt that a person actually sentenced to
several years in prison knew that his crime was punishable by more
than a year in prison.

See id.

Here, too, the record is clear that Guzmán was convicted
of three offenses that were punishable by more than one year. And,
as in Burghardt, there is no reason to suspect that the sentencing
court failed to explain the maximum penalties available.

See id.

But Guzmán did not serve even a day in prison for his prior
offenses, and the suspended sentence he was given did not exceed
one year for any of the three felony counts he was convicted of.
See Rehaif, 139 S. Ct. at 2198 (recognizing that "a person who was
convicted of a prior crime but sentenced only to probation" might
not know that his crime was punishable by more than one year in
prison); United States v. Bryant, 976 F.3d 165, 174 (2d Cir. 2020)
(indicating that a defendant's conviction may be vacated under
Rehaif if he was not sentenced to more than one year in prison on
the prior felony).

Moreover, Guzmán was only eighteen years old

when he was convicted and sentenced for his prior offenses, and he
has

a

limited

education

and

diagnosed

learning

disabilities.

Finally, four years passed between the date Guzmán was convicted
of

his

prior

offenses

section 922(g)(1).

and

the

date

he

allegedly

violated

All in all, one can see how a person in his

shoes could plausibly think that he had a decent shot of convincing

- 5 -

Case: 18-2146

Document: 00117684494

Page: 6

Date Filed: 12/22/2020

Entry ID: 6390321

at least one juror to reasonably doubt whether he knew in 2017
that his prior offenses were punishable by more than a year in
prison.
That still leaves the opportunity cost of foregoing the
three-level reduction for acceptance of responsibility.

As we

observed in Burghardt, "[t]he benefit received . . . from pleading
is often a factor in our analysis of the likelihood that a
defendant might have decided not to plead guilty."

939 F.3d at

405.

reduced

The

three-level

reduction

Guzmán

received

Guidelines sentencing range from 57–71 months to 41–51 months.
contrast,

a

successful

defense

and

acquittal

on

the

his
By

section

922(g)(1) charge -- the sole count in the indictment -- would have
resulted in no sentence at all.

So, given the circumstances of

his prior convictions, it is easy to see how Guzmán might have
thought the risk of a longer sentence would have been worth the
potential gain of an acquittal.
The decision to plead guilty is supposed to be voluntary
and informed.

See United States v. Figueroa-Ocasio, 805 F.3d 360,

368 (1st Cir. 2015).

And it is the defendant's right, once so

informed, to make the decision.

On this record, with at least a

plausible defense for trial, there is a reasonable probability
that Guzmán would not have pled guilty had he been told what the
government would need to prove in order to convict him at trial.

- 6 -

Case: 18-2146

Document: 00117684494

Page: 7

Date Filed: 12/22/2020

Entry ID: 6390321

One question remains under our review for plain error:
Does the error "seriously impugn[] the fairness, integrity or
public reputation of the proceeding"?

Burghardt, 939 F.3d at 403

(quoting United States v. Correa-Osorio, 784 F.3d 11, 17–18 (1st
Cir. 2015)).

We are confident that the answer is "yes."

The

district court's failure to explain the mens rea necessary to
support

a

conviction

under

section 922(g)(1)

during

the

plea

colloquy calls into question whether Guzmán fully understood the
nature of the charges against him, which is necessary for a plea
to be knowing and voluntary.
371.

See Figueroa-Ocasio, 805 F.3d at

And, when combined with the sparseness of the evidence

offered on appeal by the government with respect to Guzmán's
knowledge of his felon status, it creates a risk that Guzmán was
actually innocent of the charge against him and was convicted only
because of a misunderstanding of the applicable law.

See United

States v. Gandia-Maysonet, 227 F.3d 1, 6 (1st Cir. 2000).
III.
For the foregoing reasons, we vacate Guzmán's guilty
plea, conviction, and sentence and remand for further proceedings
in accord with this opinion.1

1

Because the sentence is vacated, we need not address
Guzmán's claim that it was procedurally and substantively
unreasonable.

- 7 -

